    -qAMTRAK
      NATIONAL RAILROAD
      PASSE NGER CORPORATION
                                                      The Inspector General                 6j!)
Memorandum

To:             Joseph Boardman, Presi

From:           Ted Alves

Date:           April 12, 2013

Subject:        Audit Engagement Memo: Amtrak's Implementation of the 2008
                Passenger Rail Investment and Improvement Act

This is to inform you, we are starting an audit to assess Amtrak's progress in
implementing the 2008 Passenger Rail Investment and Improvement Act (PRIIA)
provisions. PRIIA Section 221 requires the Department of Transportation (DOT) Office
of the Inspector General (OIG) to assess Amtrak and Federal Railroad Administration's
(FRA) progress in implementing the Act's provisions within three years of PRIIN s
enactment, and two years thereafter.

With the approval of the Senate and House Authorization Committees, we reached
agreement with the DOT OIG that Amtrak OIG would assess Amtrak's progress and
the DOT OIG would address FRA's progress implementing PRIIA provisions. We
issued our first PRIIA implementation report on October 26, 2011.'

In keeping with this arrangement, we are now initiating our second audit under this
provision. Our audit objectives are to (1) examine Amtrak's progress in implementing
its PRIIA responsibilities, and (2) assess any challenges to completing the
implementation. This audit will be conducted under project code 009-2013. We will
perform our audit work in accordance with Generally Accepted Government Auditing
Standards.

We request that the Finance Department OIG audit liaison arrange an entrance
conference for us with the appropriate Amtrak officials at the earliest possible date. We
will keep you advised of the status of our work.

1Passenger Rail Investment and Improvement Act of2008: Amtrak Has Made Good Progress, but Continued
Commitment Needed to Fully Address Provisions (Report No. OIG-A-2012-001) .

                          lOG Street, NE, 3W-300, Washington, D.C. 20002
                            202.906.4600/ Fraud Hotline 800.468.5469
Al Murray will be the Auditor-in-Charge for this audit. If you have any questions,
please contact David R. Warren, Assistant Inspector General, Audits, at 8-777-4742 or by
email at David.Warren@Amtrakoig.gov;orMarkA.Little.SeniorDirector.at 8-777-4893
or by email at Mark.Little@Amtrakoig.gov.




cc: DJ Stadtler, VP Operations
    Eleanor D. Acheson, VP General Counsel
    Joseph H. McHugh, VP Government Affairs & Communications
    Matthew F. Hardison, Chief Marketing & Sales
    Alex B. Melnkovic, Chief Human Capital Officer
    Jason Moifetas, Chief Information Officer
    Mark Yachmetz, Chief Corporate Research & Strategy
    William H. Herrmann, Managing Deputy General Counsel
    William J. Auve, Jr., Assistant Controller Capital & Costing
    Melantha Paige, Audit Liaison




                      lOG Street, NE, 3 W 300, Washington, D.C. 20002
                        202.906.4600 / Fraud Hotline 800.468.5469
